/"-s * *

NoH=

ISUh'

4:

1 =5

FILED
JUN 0 5 2021

SupremeCwrtoUWSWeofMav-are

\ g^PRFMTcOURT'uH

IN THE

JUL 28 2»21

SUPREME COURT OF THE UNITED STATES

PETITIONER
(Your Name)

“IX

kj&ns

3^u«viaIvs'
XVWV^

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Ca tA.

W(\c3\e&C' dr -p^Wx^Cf „____________

(nXmE OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

TSrUC€/ S(Your Name)

*

(Address)

(City, State, Zip Code)

HTfo>mv3\o
l^JPhoneAl umber)

r
Cl li\tn)

Se>5')*

^ 3^

RECEIVED
AUG 10 2021
gsaU?<38ISfflK.

QUESTION(S) PRESENTED
)

Plaintiff has a contract; a written or spoken agreement concerning employment,
■saleS'Of-tenaneyrthat-is-intenGl-tO’be'entoreeable-by-lawrboth’parties'must’sign'
employment contracts.
A enter into a formal and legally binding agreement. Copy of contract attached as
exhibit (A) which was never talk about.

2) B Letter from the EEGC which was overlooked industrial Affairs Division of hearing
attached was tiled in State and Federal Court. The letter is updated as exhibit
(B). Dated April 28, 2020
3) C Letter from the mailers Union Local M-139 accident at the company caused
by a defective chair and has never received any notice of termination with the
company to this date 2-16-00 as exhibit
4)

J

Petition to determine additional compensation Due to Injured Employee and
which never received dated 18 day of October 1996, and nature of action
determine additional compensation due. Hearing No 1022576 dated 1/30/98
Bruce Joyner Eligibility Certification

■si

LIST OF PARTIES
]

All parties appear in the caption of the case on the cover page.

»-"■—

[ ]

All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Bruce Joyner
V
The New Journal
V
Travelers Insurance
Company and
Meredith Haskell

Before Veasev. Chief Justice. Holland and Berger Justice
RELATED CASES No.372, 2003
Supreme Court on the State Delaware Order
Court Below-Superior Court in for
New Castle County
CA.NO.03A-05-004

attached hereto as exhibit

TABLE OF AUTHORITIES CITED
PAGE NUMBER

ASES

See Hudar. Continental can co.. Inc Del. Supr265 A2d 34,35 (1970) Jackson V.
Joseph P.220 Construction Co. Del. Super., CA. No.87A-JL-7 Babiarz J. (May 20,
1988) Mcm.op., of 3 Federal Bake Shops V. Maczynski DCI, super., 180 A2d 615, 616
(1962) Keith V. Dover city cab Cs. Del. Super., 427 A.2d 896, 899 (1981) 1962 Chicago
Bridge & Iron Co V. Walker, Del.Supr. 372 A.2d 185, 187 (1977) rev'don other grounds.
Duuall. Supra: Faline, V. Guide and Franis DeScansis & Sons. Del Supr., 192 A.2el
921 924 1963; Grays Hatchery V Stevens. Del. Super., 81 A, 2d 322., 324 (1950) pure
accident singular accident or specific and identifiable CAS
STATUTES AND RULES
Total disability (19 Del C. 2324)
22)

There is no statutory limit on the duration for which a claimant may receive total
disability benefits they are paid to clamant for as long as he remains unable to
engage in any type of suitable work

21 Board Rule 4(A) (4)
26 Board Rule 4(A) (3)
19 Board Rule 4(A) (2)
The pure (or specific and identifiable) accident case.
The pure accident cases (sometime referred as the specific and identify accident case)
are the obvious industrial accident case, and the amputation. These are usually the
single trauma events, the on set of symptoms usually occurs immediately or within a
very short time after incident.
OTHER
Calculation of the compensation Rate (a) In General: full time employees claimant a
'aw, subject to statutory maximum weekly benefit based on Delaware's Aww.

TABLE OF CONTENTS
1

PINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

1)

Appendix A

Agreement as to compensation

2)

Appendix B

U.S. Equal Employment Opportunity Commission Philadelphia
District Officer

3)

Appendix C

Letter to the from Kevin E. Ellis Wilmington Mailers Union 139
president accident caused by a defective chair never received
any notice of

4)

Appendix D

Mr. Joyners termination with the company to this date.

5)

Appendix E

Settlement offer dated September 17, 1997 rejected did not
know how long was going to be

6)

Appendix F

off from work, have to be careful what you sign, long-term
figures will come out different not trying to cheat myself.

7)

Appendix G

Memorandum option submitted JUN 17 1996 decided August
27, 1996 C.A. No 95A-12-004 Jude Cooch J

8)

Appendix H

Determine additional compensation

9)

Appendix I

Monday, September 29, 1997. IAB Motion to Re-open: Nature
of action 12th day October 1995.

10)

Appendix J

Review of Compensation Agreement

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:

6$-

■rti hst***
Wt

cAA"V

AccitavV E>©cvni

.,

/ /vg\A

Jfii>

The opinion of the United States court of appealsTappeareat Appendix / -i to
the i^vition and is
...
reported at
SfMl/1>
[
; or,
[ ] has been designated for publication but is not yet reported; or,
GnH 5
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[sj^eported at OcA(j\)t/'
_________________; or,

Z^Lto//

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix Jet__ to the petition and is
[•^reported at
NQV&r^vl.; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
appe^kat Appendix J-O...to the petition and is
[\/reported at •St-Jkvy\rVV<cJ|

court
eiUavstX) (A'nG
^

[ ] has been designated for publication but is no£yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____________________ ,
[ ] No petition for rehearing was timely filed in my case.
[ v] A timely petition for rehearing was denied by the United States Court of
Appeals On the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

c-

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[

1*.

A timely petition for rehearing was thereafter denied on the following date:
X>.CC\qgr^_~Xqy\Uftry ^ ^ arid a copy of the order denying rehearing
appears at Appendix _
.

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

B-r-

CONSTITUTIONAL AND
STAT UTO RY-PRQVI S.IO.N SJ N VOLVE D
Workers Compensation Law is a system of rules in every state designed to pay
the expenses of employees who are harmed while performing job related duties.
Employees can recover lost wages, medical disability payments and costs associated
with Inc case.
The right to petition the government for redress of grievances include a right to file suit
in a court of law. As such the court up held a first amendment right of Judicial access
without special reliance on the petition clause.
The complaint was cause harm at work.
Bruce Joyner 7
14 Stanley Avenue
Wilmington / Del. 19804

STATEMENT OF THE CASE
I Bruce Joyner was hurt on the at the News Journal and because of Injuries I am
unable to work because I have permanent disabilities. Also, I was offered a settlement
and at the time the lawyer (James Bailey) lost his license copy letter to the IAB from
Bruce Joyner about what occurred.
New Journal attorney stated the case was settled and there was no need for a hearing
so then my benefits was ceased and my work compensation was cut off to New
Journal attorney statement Cassaundra Kaminski AKA (Cassaundra Roberts) stated to
Linda Sewell that the case had settled and there wouldn't be any need for a hearing.
This information is documented in the transcripts/record, attached hereto copy of letter
naturalized and dated 4/13/17 to Worker Compensation State Delaware

REASONS FOR GRANTING THE PETITION
In the humane thing to do if someone get hurt on their job there's rules in life we all go
by that protects us in life. It called the court system of civil procedure.
Mr. Joyner was injured on the job and taken to the hospital from the job. Chair collapse
underneath him causing to strike his head to the concrete floor blunt trauma to Head
breaks out in sweats. Vision problems sees a psychiatrist and Dr. Lifak Patricia.
Mr. Joyner worked all his life until that injury. Mr. Joyner had a football agent name
was judge O'Hara and signed a contract with Judge O’Hara before that occurred
accident, been to professional football camps before has accident on the job that
left him permanent disabled, while eating his lunch on lunch up in front an and state
emergency that it was four to five feet of snow outside nobody couldn’t go nowhere, it
happened about 11:30 pm and 11:54 pm that. I pray to the courts for Justice. I believe
in the Court system it part of the process you have to go through don't give up on life
+his is called pain and suffering Justice will be served one day hopefully soon, hopefully
*,ie court system will straightness bad faith evil content when benefits illegally cut off
without my consent. Never had a court date or hearing about this Bruce Joyner Vs The
News Journal.

\

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

